<html>
<title> - NASA INFRASTRUCTURE: ENABLING DISCOVERY AND ENSURING CAPABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          NASA INFRASTRUCTURE:
                         ENABLING DISCOVERY AND
                          ENSURING CAPABILITY

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2013

                               __________

                           Serial No. 113-50

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-276                     WASHINGTON : 2013
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas


                            C O N T E N T S

                           September 20, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    26
    Written Statement............................................    27

Statement by Representative Julie Brownley, Acting Ranking 
  Minority Member, Subcommittee on Space, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    28
    Written Statement............................................    29

                               Witnesses:

The Honorable Paul K. Martin, Inspector General, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. Richard Keegan, Associate Deputy Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    49

             Appendix I: Answers to Post-Hearing Questions

The Honorable Paul K. Martin, Inspector General, National 
  Aeronautics and Space Administration...........................    68

Mr. Richard Keegan, Associate Deputy Administrator, National 
  Aeronautics and Space Administration...........................    84

            Appendix II: Additional Material for the Record

Submitted statement of Representative Donna F. Edwards, Ranking 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology.....................................................   114

Submitted statement of Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology....   116

Agency/MPCV Risk: Inability to Certify TPS Performance 
  presentation, submitted by Representative Steve Stockman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   117

Safety and Mission Assurance concerns related to the closure of 
  the JSC Arc Jet Facility letter, submitted by Representative 
  Steve Stockman, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   158

Update on Closure of the JSC Arc Jet Facility and National 
  Security Concerns letter, submitted by Representative Steve 
  Stockman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   161

NASA, Ames Research Center's Justification for Other than Full 
  and Open Competition document, submitted by Representative 
  Steve Stockman, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   165

Letter submitted by Representative Bill Posey, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   170

Letter submitted by Representative Bill Posey, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   173


                          NASA INFRASTRUCTURE:
                         ENABLING DISCOVERY AND
                          ENSURING CAPABILITY

                              ----------                              


                       FRIDAY, SEPTEMBER 20, 2013

                  House of Representatives,
                                    Subcommittee on Science
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T5276.001

[GRAPHIC] [TIFF OMITTED] T5276.002

[GRAPHIC] [TIFF OMITTED] T5276.003

[GRAPHIC] [TIFF OMITTED] T5276.004

[GRAPHIC] [TIFF OMITTED] T5276.005

[GRAPHIC] [TIFF OMITTED] T5276.006

[GRAPHIC] [TIFF OMITTED] T5276.007

[GRAPHIC] [TIFF OMITTED] T5276.008

[GRAPHIC] [TIFF OMITTED] T5276.009

[GRAPHIC] [TIFF OMITTED] T5276.010

[GRAPHIC] [TIFF OMITTED] T5276.011

[GRAPHIC] [TIFF OMITTED] T5276.012

[GRAPHIC] [TIFF OMITTED] T5276.013

[GRAPHIC] [TIFF OMITTED] T5276.014

[GRAPHIC] [TIFF OMITTED] T5276.015

[GRAPHIC] [TIFF OMITTED] T5276.016

[GRAPHIC] [TIFF OMITTED] T5276.017

[GRAPHIC] [TIFF OMITTED] T5276.018

[GRAPHIC] [TIFF OMITTED] T5276.019

[GRAPHIC] [TIFF OMITTED] T5276.020

[GRAPHIC] [TIFF OMITTED] T5276.021

[GRAPHIC] [TIFF OMITTED] T5276.022

[GRAPHIC] [TIFF OMITTED] T5276.023

[GRAPHIC] [TIFF OMITTED] T5276.024

[GRAPHIC] [TIFF OMITTED] T5276.025

    Chairman Palazzo. The Subcommittee on Space will come to 
order. Good morning. Welcome to today's hearing titled ``NASA 
Infrastructure: Enabling Discovery and Ensuring Capability.'' 
In front of you are packets containing the written testimony, 
biographies, and required Truth-in-Testimony disclosures for 
today's witnesses.
    I recognize myself for five minutes for an opening 
statement.
    The purpose of today's hearing is to address NASA's complex 
infrastructure issues. This is a tall order for an agency that 
is the ninth largest Federal Government real property holder. 
That includes an inventory of more than 124,000 acres, and more 
than 44 million square feet within approximately 4,900 
buildings and other structures. However, nearly 80 percent of 
the agency's facilities date back to the Apollo era and are 40 
or more years old. A 2012 study by NASA estimated that NASA may 
have as many as 865 unneeded facilities, with maintenance costs 
of over $24 million a year. Also, NASA has a backlog of over 
$2.19 billion in deferred maintenance.
    In order to better manage its infrastructure and 
facilities, NASA has established an Agency Master Plan to align 
its infrastructure with its mission and set up a Technical 
Capabilities Assessment Study to identify and evaluate Center 
capabilities against Agency needs. Also, various Centers are 
implementing innovative ways to address these infrastructure 
challenges such as the Langley 20-Year Revitalization Plan to 
right-size the Center's facilities and bring about greater 
efficiencies. Despite these efforts, NASA will continue to face 
challenges with right-sizing its infrastructure as long as it 
does not have a coherent and consistent roadmap for 
exploration.
    Since 2005, Congress has provided consistent guidance on 
how NASA should develop such a roadmap as well as the necessary 
funding on a go-as-you-can-pay basis. Despite our efforts, OMB 
and the recent Administration have chosen to divert resources 
from exploration to other efforts.
    The President's 2009 cut of $1 billion from the exploration 
budget, and the roughly 45 percent increase in the Earth 
Science budget since 2007 are just a few examples.
    Until the Administration allows NASA to develop a coherent 
exploration strategy, rather than pushing NASA toward costly, 
complex and controversial distractions such as the 
Administration's asteroid proposals, NASA will never know what 
infrastructure and facilities it actually needs.
    Setting aside this issue, I believe there are things that 
the Administration and Congress can do to allow NASA to better 
manage its facilities. NASA already has authorities to enter 
into Enhanced Use Lease agreements to maintain underutilized 
infrastructure, Space Act Agreements, traditional leases, and 
various other incentives.
    I hope the witnesses will be able to discuss how NASA is 
using these existing authorities. Are they being fully 
utilized, and does NASA have robust policies to determine which 
authority should be used for each facility, and whether Agency 
oversight is sufficient to ensure fairness and protect taxpayer 
equities.
    In addition to existing authorities, NASA and stakeholders 
have recommended various additional authorities such as 
conveyance authority, expanded Enhanced Use Lease, the 
establishment of a capital fund, and enhanced authority to 
cooperate with the commercial launch sector. While these 
proposals are promising, I believe that they must be 
accompanied by strong oversight provisions to ensure that 
taxpayer investments are protected.
    While the NASA Authorization Act of 2013 funds key NASA 
missions, maintains infrastructure and even increases funding 
for Center Management and Operations, it does not attempt to 
solve all of the agency's complex infrastructure issues. 
Instead, we have allowed time for opportunities such as this 
hearing to gain better understanding of NASA's challenges and 
options. I hope that the insights we gain today will be useful 
as we move forward with the NASA Authorization Act.
    I would be remiss if I did not mention the intense amount 
of interest that Members and stakeholders have in NASA's 
infrastructure. This is exhibited by the recent debates 
surrounding the Kennedy Space Center's Launch Complex 39A, the 
Shuttle landing facility, and the Shiloh site, as well as the 
Johnson Space Center's arc jet, cleanup of the Santa Susanna 
Site, test stand use at Stennis Space Center, as well as Hangar 
One and Moffett field at Ames Research Center, to mention just 
a few. I know many Members have opinions on these topics that 
directly impact their districts. I look forward to working with 
my colleagues, as well as NASA and the Administration to tackle 
these challenges.
    [The prepared statement of Mr. Palazzo follows:]

  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    The purpose of today's hearing is to address NASA's complex 
infrastructure issues. This is a tall order for an agency that is the 
ninth largest Federal Government real property holder. That includes an 
inventory of more than 124,000 acres, and more than 44 million square 
feet within approximately 4,900 buildings and other structures. 
However, nearly 80 percent of the agency's facilities date back to the 
Apollo era and are 40 or more years old. A 2012 study by NASA estimated 
that NASA may have as many as 865 unneeded facilities, with maintenance 
costs of over $24 million a year. Also, NASA has a backlog of over 
$2.19 billion in deferred maintenance.
    In order to better manage its infrastructure and facilities, NASA 
has established an Agency Master Plan to align its infrastructure with 
its mission and set up a Technical Capabilities Assessment Study to 
identify and evaluate Center capabilities against Agency needs. Also, 
various Centers are implementing innovative ways to address these 
infrastructure challenges such as the Langley 20 Year Revitalization 
Plan to right-size the Center's facilities and bring about greater 
efficiencies. Despite these efforts, NASA will continue to face 
challenges with right-sizing its infrastructure as long as it does not 
have a coherent and consistent roadmap for exploration.
    Since 2005, Congress has provided consistent guidance on how NASA 
should develop such a roadmap as well as the necessary funding on a go-
as-you-can-pay basis. Despite our efforts, OMB and the recent 
Administration have chosen to divert resources from exploration to 
other efforts.The President's 2009 cut of $1 billion from the 
exploration budget, and the roughly 45 percent increase in the Earth 
Science budget since 2007 are just a few examples.
    Until the Administration allows NASA to develop a coherent 
exploration strategy, rather than pushing NASA toward costly, complex 
and controversial distractions such as the Administration's asteroid 
proposals, NASA will never know what infrastructure and facilities it 
actually needs.
    Setting aside this issue, I believe there are things that the 
Administration and Congress can do to allow NASA to better manage its 
facilities. NASA already has authorities to enter into Enhanced Use 
Lease agreements to maintain underutilized infrastructure, Space Act 
Agreements, traditional leases, and various other incentives.
    I hope the witnesses will be able to discuss how NASA is using 
these existing authorities--are they being fully utilized, does NASA 
have robust policies to determine which authority should be used for 
each facility, and whether Agency oversight is sufficient to ensure 
fairness and protect taxpayer equities.In addition to existing 
authorities, NASA and stakeholders have recommended various additional 
authorities such as conveyance authority, expanded Enhanced Use Lease, 
the establishment of a capital fund, and enhanced authority to 
cooperate with the commercial launch sector. While these proposals are 
promising, I believe that they must be accompanied by strong oversight 
provisions to ensure that taxpayer investments are protected.
    While the NASA Authorization Act of 2013 funds key NASA missions, 
maintains infrastructure and even increases funding for Center 
Management and Operations, it does not attempt to solve all of the 
agency's complex infrastructure issues. Instead, we have allowed time 
for opportunities such as this hearing to gain better understanding of 
NASA's challenges and options. I hope the insights we gain today will 
be useful as we move forward with the NASA Authorization Act.
    I would be remiss if I did not mention the intense amount of 
interest that Members and stakeholders have in NASA's infrastructure. 
This is exhibited by the recent debates surrounding the Kennedy Space 
Center's Launch Complex 39A, the Shuttle landing facility, and the 
Shiloh site, as well as the Johnson Space Center's arc jet, cleanup of 
the Santa Susanna Site, test stand use at Stennis Space Center, as well 
as Hanger One and Moffett field at Ames Research Center, to mention 
just a few. I know many Members have opinions on these topics that 
directly impact their districts. I look forward to working with my 
colleagues, as well as NASA and the Administration to tackle these 
challenges.

    Chairman Palazzo. With that, I yield to the Ranking Member, 
the gentlewoman Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman, for holding today's 
hearing to review NASA's infrastructure and facilities, and 
welcome to our witnesses. Ranking Member Edwards had another 
commitment this morning, and has asked me to sit in her chair, 
and I request that her prepared statement be entered into the 
record.
    Ranking Member Edwards and I share the same passion for 
ensuring that NASA has a productive and inspiring future. 
However, a strong and vibrant space program requires that we 
provide NASA with adequate resources, including the R&D tools 
and facilities it needs to accomplish its challenging missions 
and cutting edge research.
    I am concerned about the state of the agency's facilities 
and infrastructure. The fact that NASA's facilities are aging 
should come as no surprise. Many were built during and before 
the Apollo era. Today, challenged by both declining funding and 
an uncertain budgetary environment, NASA is trying to make due 
with what it is given. In that regard, I am especially 
concerned about adequately funding NASA's Environmental 
Compliance and Restoration Program, which is responsible for 
cleaning up hazardous materials and waste that have been 
released to the surface or groundwater at NASA installations, 
NASA-owned industrial plants supporting NASA activities, 
current or former sites where NASA operations have contributed 
to environmental problems, and other sites where the Agency is 
legally obligated to address hazardous pollutants.
    According to NASA's Fiscal Year 2014 budget requests, one 
of the projects planned includes investigation and clean up of 
contaminated groundwater, soils, and demolition at Santa Susana 
Field Laboratory in accordance with a consent order with the 
State of California. This and other planned environmental 
compliance restoration activities have been the result of 
painstaking negotiations between NASA and several States.
    That is why I hope to learn more about the status of NASA's 
actions at Santa Susanna, and about what is needed to address 
NASA's other longstanding facilities and infrastructure 
challenges.
    NASA's successes are a shining light of inspiration and 
accomplishment for our youth and our Nation, and I want to 
ensure that we enable NASA to continue to fill that role in the 
coming years.
    Thank you, Mr. Chair, and I yield back.
    [The prepared statement of Ms. Brownley follows:]

  Prepared Statement of Subcommittee on Space Acting Ranking Minority 
                         Member Julie Brownley

    Thank you, Mr. Chairman, for holding today's hearing to review 
NASA's infrastructure and facilities, and welcome to our witnesses.
    Ranking Member Edwards has another commitment and has asked me to 
sit in the chair. I request that her prepared statement be entered into 
the record.
    Ranking Member Edwards and I share the same passion for ensuring 
that NASA has a productive and inspiring future. However, a strong and 
vibrant space program requires that we provide NASA with adequate 
resources, including the R&D tools and facilities it needs to 
accomplish its challenging missions and cutting-edge research.
    I am concerned about the state of the agency's facilities and 
infrastructure. The fact that NASA's facilities are aging should come 
as no surprise. Many were built during and before the Apollo era. 
Today, challenged by both declining funding and an uncertain budgetary 
environment, NASA is trying to make do with what it is given.
    In that regard, I am especially concerned about adequately funding 
NASA's Environmental Compliance and Restoration program, which is 
responsible for cleaning up hazardous materials and waste that have 
been released to the surface or groundwater at NASA installations, 
NASA-owned industrial plants supporting NASA activities, current or 
former sites where NASA operations have contributed to environmental 
problems, and other sites where the Agency is legally obligated to 
address hazardous pollutants.
    According to NASA's FY 2014 budget request, one of the projects 
planned includes investigation and cleanup of contaminated groundwater, 
soils, and demolition at Santa Susana Field Laboratory in accordance 
with the consent order with the State of California.
    This and other planned environmental compliance and restoration 
activities have been the result of painstaking negotiations between 
NASA and several states.
    That is why I hope to learn more about the status of NASA's actions 
at Santa Susana and about what is needed to address NASA's other long-
standing facilities and infrastructure challenges.
    NASA's successes are a shining light of inspiration and 
accomplishment for our youth and our nation, and I want to ensure that 
we enable NASA to continue to fill that role in the coming years.

    Chairman Palazzo. Thank you. Thank you, Ms. Brownley. If 
there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Chairman Palazzo. If there are Members who wish to submit 
additional--actually, at this time I would like to introduce 
our panel of witnesses. Our first witness is the Honorable Paul 
Martin, the Inspector General of the National Aeronautics and 
Space Administration. Our second witness is Mr. Richard Keegan, 
NASA's Associate Deputy Administrator. As our witnesses should 
know, spoken testimony is limited to five minutes each, after 
which Members of the Committee have five minutes each to ask 
questions. Your written testimony will be included in the 
record of the hearing.
    I now recognize our first witness, Mr. Martin, for five 
minutes.

           TESTIMONY OF THE HONORABLE PAUL K. MARTIN,

                       INSPECTOR GENERAL,

                      NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Martin. Thank you, Mr. Chairman. Chairman Palazzo, 
Congresswoman Brownley, and Members of the Subcommittee, the 
Office of Inspector General welcomes this opportunity to 
discuss the challenges facing NASA with respect to its aging 
infrastructure and antiquated facilities.
    Over the past three years, we have issued 10 audits 
examining many of NASA's most pressing infrastructure-related 
issues. In my remarks this morning, I will focus primarily on 
our February audit that assessed NASA's efforts to reduce its 
unneeded infrastructure.
    As mentioned, NASA is the ninth largest Federal Government 
property holder, controlling approximately 4,900 buildings and 
structures, more than 80 percent of which are over 40 years old 
and beyond their design life. However, NASA has not been able 
to properly fund required maintenance for its facilities, and 
estimates its deferred maintenance costs at $2.3 billion.
    In our February audit, we identified 33 facilities, wind 
tunnels, test stands, thermal vacuum chambers, air fields, and 
launch infrastructure, that NASA was not fully utilizing or for 
which managers could not identify a future mission use. These 
facilities cost more than $43 million to maintain in 2011 
alone. The need for these facilities has declined as a result 
of their poor condition, changes in NASA's mission, and the 
advent of alternative testing methods. We found that NASA's 
attempts over the years to address its infrastructure problems 
have met with limited success. Our audit identified four 
reasons why.
    First, Fluctuating and Uncertain Requirements. Changes to 
national space policy initiated by the President and Congress 
have increased the difficulty of determining which facilities 
NASA needs. For example, NASA's human exploration mission has 
transitioned from the Space Shuttle Program to the 
Constellation Program to the Space Launch System in just six 
years. Because decisions about whether to retain specific 
facilities depends heavily upon the missions that NASA 
undertakes, frequent changes to these missions complicate the 
Agency's efforts to manage its infrastructure.
    A recent example is the A-3 test stand at Stennis, which 
was constructed to accommodate special testing requirements for 
the J2-X engine. When Constellation was cancelled in 2010, the 
test stand was approximately 65 percent complete. Because 
neither the Space Launch System nor any other existing or 
planned NASA program requires the A-3's capabilities, NASA 
plans to mothball the $350 million test stand later this month 
once it is completed. Even so, maintenance costs for the 
mothballed stand may reach $1.5 million annually.
    Second, Agency Culture and Business Practices. 
Historically, NASA has practiced a decentralized approach to 
managing its infrastructure, leading Centers to compete for 
work from the Agency's major programs. A ``keep it in case you 
might need it'' culture has led Centers to either build or 
preserve facilities that duplicate capabilities elsewhere in 
the Agency. For example, NASA currently has 36 wind tunnels at 
5 Centers, 35 rocket test stands at 6 sites, and 40 large 
thermal vacuum chambers at seven locations.
    Third, Political Pressure. The political context in which 
NASA operates often impedes its efforts to reduce 
infrastructure. During our review, we noted several examples 
where political leaders intervened in NASA's plans to close or 
consolidate Agency facilities. For example, Members of Congress 
opposed NASA's decision to consolidate arc jet operations at 
Ames, and in another matter, argued against NASA's efforts to 
relinquish control of Hangar One at Moffett Field. While input 
from federal, state, and local officials is not unique to NASA, 
such pressure creates additional difficulties as the Agency 
seeks to manage its aging infrastructure.
    Finally, Inadequate Funding. Disposing of facilities that 
NASA no longer needs is not without cost, and in many 
instances, requires environmental remediation. For example, 
under the terms of its current agreement with California, NASA 
estimates that the environmental cleanup at the Santa Susana 
Field Laboratory will cost more than $200 million. 
Consequently, NASA's ability to reduce its infrastructure 
depends on funding for cleanup and other costs associated with 
demolition and disposal.
    NASA officials readily acknowledge that the Agency has more 
infrastructure than it needs to carry out current and planned 
missions, and to its credit NASA has a series of initiatives 
underway that we believe are positive steps toward right sizing 
its real property footprint. However, many of these efforts are 
in the early stages and their ultimate success remains unclear.
    In the end, NASA's best efforts to reduce its excess 
facilities may be insufficient to overcome the cultural and 
political obstacles that have impeded past efforts. 
Accordingly, an outside process similar to the DoD's Base 
Realignment and Closure Commission may be needed to help make 
the difficult but necessary--infrastructure decisions.
    Thank you very much.
    [The prepared statement of Mr. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T5276.026
    
    [GRAPHIC] [TIFF OMITTED] T5276.027
    
    [GRAPHIC] [TIFF OMITTED] T5276.028
    
    [GRAPHIC] [TIFF OMITTED] T5276.029
    
    [GRAPHIC] [TIFF OMITTED] T5276.030
    
    [GRAPHIC] [TIFF OMITTED] T5276.031
    
    [GRAPHIC] [TIFF OMITTED] T5276.032
    
    [GRAPHIC] [TIFF OMITTED] T5276.033
    
    Chairman Palazzo. Thank you, Mr. Martin.
    I now recognize our next witness, Mr. Keegan, for five 
minutes.

                TESTIMONY OF MR. RICHARD KEEGAN,

                ASSOCIATE DEPUTY ADMINISTRATOR,

                      NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Keegan. Chairman Palazzo and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to discuss NASA's continuing efforts to balance and 
align the Agency's infrastructure goals with today's evolving 
mission requirements.
    Every day, NASA scientists and engineers achieve tremendous 
advances in the areas of human space flight, Earth Science, 
space science, aeronautics research, and space technology, 
inspiring people worldwide. These achievements would not be 
possible without access to reliable and cost effective physical 
infrastructure capabilities located across the country at 
NASA's 10 Centers and their associated facilities. NASA takes 
seriously its responsibility to be an effective steward of 
these capabilities, ensuring they are effective and available 
as needed for our current and future missions.
    Like other Federal agencies, NASA is challenged with 
managing the significant needs of an aging physical 
infrastructure portfolio within a budget environment that can 
be difficult to predict. NASA's infrastructure was largely 
constructed during or before the Apollo era. While our 
facilities are generally well-designed and constructed, age and 
changing mission requirements have affected the resilience and 
usefulness of many of our facilities. Yet in spite of these 
challenges, NASA continues to make significant progress on 
achieving our overarching facility strategy. For example, each 
NASA Center has one or more major facility replacement projects 
underway at the planning, design, or construction stage.
    NASA is pursuing public and private sector utilization 
opportunities for assets that are excess to its needs. An 
example is the recent agreement between NASA and Space Florida 
for the use of Orbital Processing Facility 3 at Kennedy Space 
Center. Another such opportunity is the ongoing competition 
regarding Kennedy's Launch Complex 39A. Given that this is an 
ongoing competition, it would be inappropriate for me to 
comment further on this particular matter today.
    Agency-deferred maintenance, an estimate of the essential 
but unfunded maintenance work necessary to bring all facilities 
up to standards, has decreased by 5.7 percent since 2011. The 
utility system replacement projects at our NASA Centers are 
underway, reducing the risk of major utility failures that 
could impact Agency operations, and the number of real property 
assets owned and maintained by NASA continues to decrease, 
thereby freeing up infrastructure dollars for other projects. 
NASA estimates that it will reduce administrative space by 
another 256,000 square feet by the year 2015 via demolition, 
transfer, or lease termination.
    Today, NASA's infrastructure decisions are guided by an 
Agency facility strategy defined in 2009, along with a 20-year 
Agency master plan that informs implementation of this 
strategy. NASA has also established an Agency level mission 
support council to integrate senior management review of 
decisions within the mission support portfolio, ensuring that 
mission requirements and facility investment are better 
aligned. Additionally, we have established a collaborative 
partnering arrangement between center and headquarters 
officials in order to ensure facility strategic goals are 
realistic, based on budget availability.
    In July, 2012, NASA stood up a Technical Capability 
Assessment Team, or TCAT, under the leadership of the Associate 
Administrator that was charged with developing a process for 
identifying and assessing each Center's technical capabilities 
against the current and future needs of the Agency. The team 
was also asked to identify areas for potential capability 
divestment or investment, due to changing mission needs and/or 
duplication of capabilities. Once complete, the team's analysis 
will be used from a facilities perspective to inform future 
Agency master planning activities, and to support future 
strategic facility investment decisions.
    In summary, NASA believes that our strategic infrastructure 
approach, aligned with mission requirements and guided by a 
well-integrated risk management practice provides the best 
framework for achieving the Agency's infrastructure goals in 
the most cost effective manner over time. We therefore 
appreciate this Subcommittee's continued support for NASA 
programs and priorities, and for the funding NASA needs to 
maintain, protect, and improve our Nation's valuable Space and 
Aeronautics Program infrastructure. I will be pleased to answer 
any questions you may have.
    [The prepared statement of Mr. Keegan follows:]

    [GRAPHIC] [TIFF OMITTED] T5276.034
    
    [GRAPHIC] [TIFF OMITTED] T5276.035
    
    [GRAPHIC] [TIFF OMITTED] T5276.036
    
    [GRAPHIC] [TIFF OMITTED] T5276.037
    
    [GRAPHIC] [TIFF OMITTED] T5276.038
    
    [GRAPHIC] [TIFF OMITTED] T5276.039
    
    [GRAPHIC] [TIFF OMITTED] T5276.040
    
    Chairman Palazzo. Thank you, Mr. Keegan. I thank the 
witnesses for being available for questioning today. Reminding 
Members that Committee rules limit questioning to five minutes, 
the Chair will at this point open the round of questions. The 
Chair recognizes himself for five minutes.
    My question is going to be for Mr. Martin or Mr. Keegan. 
Both of you can answer. How does NASA's Enhance Use Leasing 
authority differ from the authorities granted to other Federal 
agencies? Mr. Keegan, you would like to start?
    Mr. Keegan. I am not certain the authorities other agencies 
have in the Enhanced Use Leasing area. I know that we use our 
Enhanced Use Leasing authority at five Centers currently, and I 
think there is more that NASA can do to take advantage of that 
authority. But I am not aware of a comparison with other 
agencies and the particular authorities they have under 
Enhanced Use Leasing. I know we are restricted, for example, 
from the nature of in-kind contributions we can accept and 
things like that.
    Chairman Palazzo. That is a good question. Mr. Martin, do 
you--I will come back with the in-kind limitations.
    Mr. Martin, do you have--would you like to add anything? 
Because I know there have been reports and studies, you know, 
talking about NASA's Enhanced Use Leasing authority compared to 
other agencies. I am assuming you all read these and can kind 
of glean best practices.
    Mr. Martin. Yes, I was going to comment on the same thing 
Rick mentioned that is the limitation on Enhanced Use Leasing. 
The in kind contributions need to be tied to some type of----
    Mr. Keegan. Energy.
    Mr. Martin. --energy-dependent type thing, and I think as 
we talk about what are possible changes that Congress may 
consider, it may be removing that limitation.
    Chairman Palazzo. Would you like to expand on that to maybe 
address possibly commercial space endeavors and others, because 
it is limited to just energy--environmental projects at this 
time.
    Mr. Keegan. I know that NASA requested authority this year 
to accept commercial revenue under tightly controlled 
circumstances where we share, for example, a launch complex. I 
know the Air Force has--or DoD has that authority where they 
can accept a commercial vendor's funding to fund a support 
contract at that launch facility to provide services to all the 
launch vehicles, government and commercial, and giving NASA 
that authority would give us--it might provide some leveraging 
of resources, but also from a private industry point of view, 
create common business practices, whether it is a NASA launch 
site or DoD launch site.
    Chairman Palazzo. If we expand these authorities, would you 
all like to--I mean, how would we go about A) making sure it is 
uniform and fair across all the Centers, and B) how are we 
going to protect the taxpayer investment and making sure that 
we are getting the right return on these agreements and 
authorities? Mr. Keegan?
    Mr. Keegan. I think, first of all, any degree of oversight, 
you know, the Committee would want to exercise would be 
important, but NASA would develop internal procedures for the 
use of those authorities that would make sure that we make 
decisions that are optimum from an agency level that are 
equitable across the Centers, and that do protect the taxpayer 
interest to get the, you know, the most and maximum benefit out 
of the assets that they have funded, you know, at NASA.
    Mr. Martin. Mr. Chairman, if I could just add to that?
    Chairman Palazzo. Yes, Mr. Martin.
    Mr. Martin. The broader issue on leasing is that leasing is 
a valuable mechanism that NASA can use to help pick up some of 
its operations and maintenance costs. We did a review looking 
at NASA's leasing practices, and our bottom line conclusion 
there--quite frankly, there were several. One is that NASA--
before you can enter into an Enhanced Use Lease or a 
traditional lease, NASA needs to make a decision that it needs 
to retain that facility or property for a future mission use. 
We found that NASA wasn't making that decision as a threshold 
matter. You are not supposed to use leasing of in kind as a 
substitute for disposal, demolition, or giving over it to GSA. 
So that is a threshold issue. The threshold decision is does 
NASA have a future mission use for this facility or property? 
And if so, our audit found that NASA was not aggressively 
promoting these leasing opportunities at its Centers.
    Chairman Palazzo. I mean, that comes back to we really need 
a roadmap for where NASA is going to explore next so we can 
actually determine what facilities and infrastructure that we 
truly need. Would you agree with that, Mr. Keegan?
    Mr. Keegan. Yes, I think a definitive roadmap obviously 
would allow us to focus our facility investments, sort of have 
more certainty about where we are going and the kind of 
investments we need to make.
    Chairman Palazzo. Mr. Martin?
    Mr. Martin. I would agree as well. We pointed out in our 
written and oral remarks that changing the focus of these sort 
of big ticket, long-term missions, and focused primarily on 
human exploration, is costing the taxpayers a significant 
amount of money.
    Chairman Palazzo. I have a tendency to agree, and I think 
that is one of the reasons why the NASA 2013 Authorization Act 
does direct NASA to come up with a roadmap so that we can know 
where we are going, and then we can all focus on getting there.
    So I appreciate your questions. My time is expired. I now 
recognize Ms. Brownley for five minutes.
    Ms. Brownley. Thank you, Mr. Chair, and my question is 
directed to Mr. Martin.
    Your office's February 2013 report on NASA's environmental 
remediation efforts at the Santa Susana Field Laboratory 
appears to question NASA's 2010 agreement with the State of 
California to clean up NASA's portion of the site to background 
levels. It says, and I quote, ``NASA has agreed to clean its 
portion of the Santa Susanna site to a level that exceeds the 
generally accepted standard necessary to protect human health 
in light of the expected future use of the site.'' In your 
report, are you suggesting that NASA not comply with the 
agreement, and if so, could you clarify its findings and 
recommendations?
    Mr. Martin. Sure. Our recommendation is just as you spelled 
it out. The Santa Susana Field Laboratory, we believe that NASA 
needs to investigate any and all alternatives for reaching a 
more, we think, appropriate resolution of the environmental 
remediation based on the future use of the site. The agreement 
that NASA has entered into, as you indicated, would be to clean 
the Santa Susana Field Laboratory, NASA's portion, to a 
background level, which will cost taxpayers over $200 million. 
Given that the expected future use is for recreational 
purposes, cleaning up to that level will cost the taxpayers $25 
million. And so we were laying the facts out there that NASA 
should do everything in its power to clean--to follow, I think, 
what is the normal practice and clean this site for its 
expected future use.
    Ms. Brownley. Okay. Well, I think the future use I think is 
still--I don't think it is defined necessarily to strictly 
recreational areas, but I know that there is some interest in 
moving in that direction. But the agreement certainly was very 
carefully negotiated, certainly by the State of California and 
DTSC, and there was a reason I think the State felt and I 
certainly concurred that cleaning up to background levels was 
the appropriate clean up for it to be safe for potentially 
recreational use or other uses. But I appreciate your comment 
on that.
    I guess I would follow up with Mr. Keegan with regards, 
again, to the Santa Susana Field Lab and its clean up. So I 
understand, certainly my interpretation and I think the State 
of California's interpretation on the AOC is that the agreement 
is it will get cleaned up to these background levels. I know 
that there was recently a completed EIS report, and the purpose 
of that EIS report was to determine the best ways in which this 
clean up could occur. I think we are in the process of a public 
comment period as we speak, which ends, I think, on October the 
1st.
    So I was just wondering with the EIS report and that 
process that is going on if you could just comment from your 
vantage point what is the status of NASA's actions with respect 
to the clean up of your portion of that site?
    Mr. Keegan. Yes, Congresswoman. All the information you 
just related is my understanding as well of where we are. The 
draft EIS is open for comment until October 1, and we expect a 
final EIS in November, and NASA is committed to fulfilling our 
obligations under the AOC. There is sufficient funding in our 
FY14 request to accomplish all the activities that are planned 
for FY14, leading to fulfilling our commitments under the AOC.
    Ms. Brownley. So regardless then of what the IG may be 
recommending, your commitment is still to the agreement with 
the AOC?
    Mr. Keegan. We are committed to the agreement under the 
AOC.
    Ms. Brownley. Okay, thank you.
    Thank you very much, and I will yield back my time.
    Chairman Palazzo. Thank you. I know recognize Mr. Brooks 
for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Which one of you two would be best to share information 
about launch pad 39A? Do you both have insight on it?
    Mr. Martin. The Inspector General's office has not done any 
audits or reviews of the current--certainly the current RFP 
that is on the street for leasing. We have looked more broadly 
at launch infrastructure, but we have not looked specifically 
at pad 39A or 39B.
    Mr. Brooks. Mr. Keegan?
    Mr. Keegan. I can talk in general terms about pad 39A as an 
asset, but not about the ongoing competition, because it is a 
matter that is under competition and we want to preserve the 
integrity of that competition.
    Mr. Brooks. Are you familiar with the accumulated taxpayer 
costs for the construction and maintenance of launch pad 39A?
    Mr. Keegan. The current replacement value if we were to 
build a new one just like that is over half a billion dollars. 
It is $535 million.
    Mr. Brooks. Five hundred thirty-five million dollars. Are 
you familiar with the annual maintenance costs for launch pad 
39A?
    Mr. Keegan. When it was in operations, it was about $12 
million a year. Now in the mothball status when we are doing 
only a minimal amount of maintenance, it is $1.2 million.
    Mr. Brooks. Well, I do want to address as best as possible 
the announcement for proposals or request for proposals 
concerning 39A. It has come to my attention that it is possible 
that under the current proposal situation that 39A could be 
taken over by one private company. Is that an accurate 
perception that I have?
    Mr. Keegan. The AFP, which is a public document, is open to 
proposals for either single user use or multi-user use of pad 
39A. We don't express a preference for the operational concept.
    Mr. Brooks. Are you familiar with SpaceX's proposal?
    Mr. Keegan. I probably should not comment on that.
    Mr. Brooks. Are you familiar with it? That is my first 
question, not whether you should comment on it.
    Mr. Keegan. Yes.
    Mr. Brooks. And is it public?
    Mr. Keegan. No.
    Mr. Brooks. The information I have from the Committee staff 
and also from letters by my colleagues in the House and then 
also individuals in the Senate to NASA, they express concern 
that the way things are going, NASA may turn over launch pad 
39A to a single user, SpaceX, which would be to thee exclusion 
of other commercial space providers and also potentially to the 
exclusion of launch pad 39A being a backup for the Space Launch 
System. Is there any merit to those concerns expressed by my 
colleagues in the House and their letters to NASA, and then 
also by Members of the United States Senate?
    Mr. Keegan. I would--as I said earlier, the AFP that NASA 
issued indicated that we were open to either a single user 
concept or a multi-user concept. With respect to SLS, I think 
our analysis indicated that pad 39B is more than sufficient 
under any reasonable scenario to fully subscribe--to fully meet 
the requirements of SLS. As a matter of fact, it won't fully 
subscribe 39B. 39B has the potential to do a lot more, and so 
to achieve that maximum potential, we are looking to make 39B a 
multi-user launch pad.
    Mr. Brooks. Well, I have serious concerns and reservations 
with NASA's potential plans to lease Kennedy Space Flight 
Center's launch complex 39A exclusively to one company. If you 
would, please explain to me and the panel what benefit it is to 
taxpayers for one commercial provider to have sole use of pad 
39A, regardless of which commercial provider that may be.
    Mr. Keegan. I am not sure how much I should say about this. 
I would just say that the AFP provides the criteria under which 
NASA will make a selection in best interest of the public to 
get the maximum benefit for the public out of that asset that 
taxpayers have invested in.
    Mr. Brooks. Well that being the case, as much as I can, I 
would encourage NASA to make launch pad 39A a multi-user 
facility. I have reservations about the potential adverse 
impact on our space program of one of our primary launch pads 
being taken over by one user, which in my judgment, would tend 
to both stifle competition, which I think is a good thing, on 
the one hand, and on the other hand, reduce the ability of 39A 
to be used as a backup, should it be necessary for either other 
private users or by NASA itself.
    I see my time has expired, but I hope that you will take my 
concerns and the concerns of other Members of Congress and of 
the United States Senate into account as NASA wrestles with 
this matter. Thank you.
    Chairman Palazzo. I now recognize Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. I want to follow up on 
the previous gentleman's line of questioning.
    A handful of questions. If launch complex 39A is run as a 
multi-use facility, I understand the commercial companies 
involved want to make it multi-user. Has NASA completed fully 
converting launch complex 39B into a multi-user facility, and 
if not, what is the remaining cost of doing so? And if so, can 
we assume that no more taxpayer funds are needed to modify 39B 
for multiple users?
    Mr. Keegan. The work to convert pad 39B is not fully 
complete, but I don't have the cost figures. We are in that 
scheduled process. If you like, I could provide that for the 
record.
    Mr. Kilmer. Thank you. In addition, can you talk about how 
those costs compare to the $1.2 million of maintenance costs 
that you just spoke about related to pad 39A?
    Mr. Keegan. The cost for conversion of 39B or ultimately 
for the cost of maintenance?
    Mr. Kilmer. Both.
    Mr. Keegan. I don't have the specifics on that, but again, 
I can provide that for the record. I am certain that an active 
launch pad would cost more to operate and maintain than the 
$1.2 million to maintain a mothball launch pad.
    Mr. Kilmer. Okay. Thank you. The rest of my questions were 
covered. Thank you.
    Chairman Palazzo. The gentleman yields back. I now 
recognize Mr. Stockman for five minutes.
    Mr. Stockman. Thank you. I remember when the Columbia had 
its unfortunate accident, and the one thing that they mentioned 
in the after report was the inability for NASA to focus on 
safety, and the culture--as you recall, the culture of safety 
was not there. And yet, I have this report in front of me, an 
internal review, which talks about safety. Some of the concerns 
I have are in regards to arc jet. Mr. Martin, are you familiar 
with the closing of arc jet?
    Mr. Martin. I am familiar with the consolidation of the arc 
jet.
    Mr. Stockman. Are you familiar also with the report that I 
hold in my hand? It is called ``The Inability to Certify TPS 
Performance.'' It was issued March 8, 2012.
    Mr. Martin. I have not personally read it.
    Mr. Stockman. Okay. Mr. Chairman, I ask that this report be 
submitted for the record, and that one of the things----
    Chairman Palazzo. Without objection.
    [The information appears in Appendix II]
    Mr. Stockman. One of the things it states, actually, your 
report is that this closing of arc jet could raise--and this is 
all quote from your own report--from NASA's own report. ``We 
believe the loss will impact our ability to certify TPS or in 
tests next year.'' And I am wondering if you could take an 
opportunity to look at this. I mean, you and I or both of you 
could look at this and understand, I think, the mistake that is 
going forward on consolidating the arc jets, because quite 
frankly, it is going to impact safety. That is not me, that 
is--also, we have two letters from other individuals which I 
would like to also submit for the record----
    Chairman Palazzo. Without objection.
    [The information appears in Appendix II]
    Mr. Stockman. Thank you, Mr. Chairman. I am wondering, if 
you haven't heard of this, why not and would you consider 
looking at this if we turned it over to you?
    Mr. Martin. If I could, as a point of clarification, I am 
with the Inspector General's office. That is not our report. 
That is probably Mr. Keegan's report or big NASA's report or an 
advisory group. So I am not familiar with it because the Office 
of Inspector General has not issued that report. I would be 
happy to read any piece of paper that anyone puts in front of 
me----
    Mr. Stockman. Okay.
    Mr. Martin. --to inform our independent review of NASA.
    Mr. Stockman. But I am just saying is the person that is--
and we all remember the tragedy, and I just think that wisdom 
dictates that we take a look at what they are recommending and 
what is going on. And what is going on now is that we are 
transferring arc jet, and in the meantime, diminishing NASA's 
ability to create a culture of safety. I would think that you 
would be interested as Inspector General--that this would be 
something that would be critical to your office.
    Mr. Martin. The culture of safety is critical to my office. 
Absolutely. Consolidating NASA's infrastructure is also 
critical.
    Mr. Stockman. But you wouldn't want to do it at the expense 
of safety, would you?
    Mr. Martin. Not if there is a tradeoff. Safety would come 
first.
    Mr. Stockman. Okay. Well, I want to point to you that this 
is what is happening. In order to cut literally $5 million out 
of a very large budget, it is questioning the rationale behind 
that and I am just really concerned that we are going to repeat 
our mistakes.
    I guess, Mr. Keegan, you have something to say or do you 
want to comment on it? Are you more familiar with it?
    Mr. Keegan. I am not familiar with any official NASA report 
that comes to that conclusion. I know our chief engineer and a 
whole team of engineers across the Agency looked at this 
closely and determined that we could safely make this 
transition. So----
    Mr. Stockman. Well, that is not what your own report says, 
or the experts. I am just letting you know. I will give it to 
you. I will give you the letters, I will give you your own 
report which I highly recommend you read. I think that if this 
comes out down the road that we have problems then it is going 
to be looked back that we didn't do our jobs, that we on the 
Committee turned a blind eye to NASA documents and said we are 
going to go forward with a policy that is going to be 
detrimental to safety. And I just have to tell you, for me, 
that raises real concerns and I am glad you are open to reading 
this. I will forward you the documents and I hope you take into 
consideration.
    My time is also run out, but if you guys could come by my 
office sometime and you want to speak with me, I would be happy 
to do so, but this is a fear that we are going to repeat the 
same mistakes we did before by making safety secondary to $5 
million. It just doesn't make sense.
    Mr. Chairman, I yield back the balance of my time. Thank 
you.
    Chairman Palazzo. The gentleman yields back. I now 
recognize Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. I will just register 
support for the comments that Mr. Brooks and Mr. Kilmer made 
with regard to some concern about the launch complex 39A 
decision-making process, and I would register that I actually 
think it would be in our interest to have that as a multi-user 
facility.
    My line of questioning is actually going to be a little bit 
different. Based off of Mr. Martin's opening testimony and 
based off of my vast congressional experience of 9 months on 
this committee, it seems as though we have gone through several 
missions just in that nine months. You know, when I first got 
here, it seemed like the mission was we were going to look for 
manned space travel to Mars, and we talked about asteroid 
retrieval. Then there was a shift to a mission to the Moon. I 
think you were very clear in your testimony that the first step 
we have to do is actually come up with a strategic plan, that 
we actually have to have a mission and a roadmap, and I think 
this committee has made that recommendation. Because if you 
don't have that long-term plan, if you don't have that roadmap, 
how are we going to make the decisions on what facilities to 
keep, what facilities not to keep, what to decommission, what 
the best process is? I would love to hear your thoughts on 
that, either one of you. But again, I think that is the 
critical issue here, how you get NASA, the Administration, and 
Congress on the same page to come up with a single mission in a 
single timeframe, and then we can make decisions. You know, if 
we want to go to Mars, is the best step to go to the Moon? Is 
the best step to do asteroid retrieval? So we need that clarity 
of mission, would you guys agree?
    Mr. Keegan. Yes, Congressman, I would certainly agree that 
the more definitive your technical roadmap for your mission 
requirements, the more you can tailor and optimize the limited 
resources you have to invest, especially in these large cost 
items that Mr. Martin mentioned. So that would help.
    I would say also that NASA agrees that we can also do 
better just in the situation we are in as pointed out in the 
Inspector General's report to do a better job within our 
existing authorities and our existing situation to dispose of 
our excess infrastructure as well.
    Mr. Bera. Mr. Martin, would you agree with that?
    Mr. Martin. Well, as the Office of Inspector General, we 
are not permitted to have any original thoughts or opinions. We 
are not management, we just come behind management after they 
have made a decision and criticize that decision.
    Mr. Bera. So let me change the question. Would you agree 
lack of mission clarity makes it much harder to make some of 
these decisions on what assets to keep and what assets not to 
keep?
    Mr. Martin. Absolutely.
    Mr. Bera. Okay.
    Mr. Martin. Absolutely, and then if I could, beyond the 
human exploration, you know, the scientific mission, which is 
obviously a massive component of what NASA does, the thermal 
vacuum chambers and a lot of the big ticket--the wind tunnels, 
the very expensive infrastructure that NASA has, you need to 
have a map.
    Mr. Bera. Right. So my challenge to this body, my challenge 
to the Administration, my challenge to NASA's leadership is 
that we need to lock ourselves in a room, we need to agree on a 
mission, and we need to agree on a timeframe by which we hope 
to accomplish that mission, similar to President Kennedy giving 
us a challenge in the 1960s, to get this clarity, because how 
can you make decisions, how can you look at assets without 
knowing where we want to head? So that is not a question, that 
is just a rhetorical comment.
    The other thing, Mr. Martin, in your testimony was the 
decision-making process. NASA as a large organization has to 
make central decisions. Each facility can't make their own 
decision--because they are based on the interest of that 
particular facility. Again, we are in times of tight budgets 
and we have to have a better decision-making process. So again, 
that is not a question, it is just a comment. The decision-
making process is going to get more complicated as well 
because, you know, we are seeing this shift from a largely 
public government agency to one that is becoming a public-
private partnership, and that adds just another dimension of 
complexity. So again, not a question but just an observation.
    I will make one final comment. Again, I hope this body, 
this committee, the Administration, and NASA's leadership can 
come to an agreement on what our mission is, what our timeframe 
is, and then just agree and let's start moving forward and 
let's go forth and accomplish that mission.
    Mr. Chairman, I will yield back.
    Chairman Palazzo. The gentleman yields back. I now 
recognize Mr. Hall for five minutes.
    Mr. Hall. Thank you, Mr. Chairman. I am pleased to be here, 
and I am pleased at a guy named Olin ``Tiger'' Teague, whose 
portrait is right over here, he is watching and I hope he is 
listening to all of this, because I am a very pro-NASA guy, 
always have been since I have been here. I asked, through him, 
to get on the NASA Committee and Energy and Commerce, and 
received both of them back in 1981. I have been with this 
Committee ever since. I have seen some things I have disagreed 
with, but I think they always try to be fair, and I guess that 
is what we are asking for here.
    I presume that NASA has a statutory mission obligating it 
to ``seek and encourage to the maximum extent possible the 
fullest commercial use of space.'' That is a very good 
statement. You can comment on that, can't you, sir?
    Mr. Keegan. Yes, that is a very good statement.
    Mr. Hall. You subscribe to that, don't you, when you 
comment----
    Mr. Keegan. I subscribe to that.
    Mr. Hall. And with that mission in mind, I have some 
questions about the process NASA is using to determine the 
disposition of launch complex 39A and 39B at Kennedy Space 
Center. These are national assets that cost millions of dollars 
as has been testified to here to construct that are historic 
sites of numerous space launches. And I don't have a Texas 
angle here. Johnson Space Center and Mr. Tiger are not involved 
here directly, but these launch pads certainly have an interest 
to all Americans in how they are going to be utilized to the 
greatest extent possible in the future, and how they will be 
maintained in the Florida environment. So it is my 
understanding that NASA is considering launch pad 39B for its 
own use in the future and is considering awarding the use of 
pad 39A for commercial industry use. Do you understand that and 
agree to that? You both agree to it? You think that is a good 
way to do it?
    Mr. Keegan. I would put it somewhat differently. With the 
end of the Shuttle Program, NASA and Kennedy in particular 
identified assets that we would no longer require to implement 
our program, and in January, 2011 put out an announcement of 
availability to provide broad information about those assets. 
Pad 39A was one of those assets, the Shuttle launch facility 
was another one, Orbiter Processing Facility 3 was yet another, 
so----
    Mr. Hall. Okay, I thank you for that, and I will get to 
that.
    In regards to launch pad 39A, is NASA doing all it can to, 
as I have quoted up here, ``encourage to the maximum extent 
possible the fullest commercial use of space.''
    Mr. Keegan. Yes, that is a criteria in the AFP and we will 
evaluate the proposals according to criteria in the AFP.
    Mr. Hall. Some have argued that NASA should operate 39A as 
a multi-user facility, given the significant investment by the 
taxpayers, roughly $500 million. Please explain the rationale 
if 39A were not to be operated as a multi-user facility.
    Mr. Keegan. The rationale would be that the proposed use in 
that scenario would best meet the criteria that we laid out in 
the RPF and provide the best benefit for the Nation of the 
investment in that facility.
    Mr. Hall. What steps can NASA take to ensure that out-
leases are awarded through an open, competitive, and fair 
process? Mr. Martin, will you respond to that?
    Mr. Martin. Well, I think they have. They have the RFP, the 
request for proposals right now, and you have a decision-making 
process at NASA Headquarters which NASA currently is involved 
in. Again, as an Office of Inspector General, if there are any 
complaints or allegations that the process was somehow 
circumvented----
    Mr. Hall. I understand your----
    Mr. Martin. --we will jump in.
    Mr. Hall. --thrust there. Who will make the decision for 
39A, personnel at Kennedy Space Center or NASA Headquarters?
    Mr. Keegan. That decision will be made at NASA Headquarters 
and I will be the source selection.
    Mr. Hall. One more question about the closure of Johnson 
Space Center, and it is not--we don't--Johnson is not in this 
battle. But the NASA authorization of 2010, Sections 1102 and 
1103 required NASA to conduct an institutional requirement 
study which has driven NASA's action to consolidate, retire, 
outsource, and revitalize various facilities. However, the 
language in Section 1105 states ``Prior to receipt by the 
Congress of the study, recommendations, and implementations 
strategy developed pursuant to Section 1103, none of the funds 
authorized under this Act may be used to transfer the 
functions, missions, or activities and associates civil service 
and contractor positions from any NASA facility without 
authorization by the Congress to implement the proposed 
strategy.'' To your knowledge, has NASA complied with the law, 
Mr. Inspector General?
    Mr. Martin. I am actually unfamiliar with that particular 
portion. I have not heard that they haven't complied with the 
law.
    Mr. Hall. Congressional Members have asked multiple times 
through letters, and I understand that the delegation from 
Florida has stated their position and I respect that. I would 
do the same thing if I was on their--operated out of Florida 
instead of Texas. I just think that fairness is fairness, and 
ask this last question. Is Ames arc jet facility able to 
fulfill all of NASA's needs, Mr. NASA?
    Mr. Keegan. It will be when we complete the transition.
    Mr. Hall. Mr. Chairman, I thank the witnesses and I thank 
you. I yield back.
    Chairman Palazzo. I now--the Chair now recognizes Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
to the witnesses.
    One of the things that we have talked about a lot in this 
subcommittee is the importance of and need to maintain United 
States leadership in space and aeronautics going forward, so I 
wanted to talk a little bit about the National Academy's 
assessment of the NASA laboratories.
    In that assessment, the panel, after assessing the NASA 
laboratories use for basic research, recommended that NASA 
increase resources to its aeronautics laboratories and 
facilities to attract and retain the best and brightest 
researchers, and to at least remain on par with international 
aeronautical research organizations in Europe and Asia. So it 
is worth noting, too, that the panel found that the equipment 
and facilities at NASA's basic laboratories are inferior to 
those at comparable Department of Energy laboratories, top tier 
U.S. universities, and corporate research laboratories. You 
know, it goes without saying that without the modern and 
capable facilities, it is hard to remain competitive with the 
rest of the world.
    So Mr. Keegan, in your prepared statement, the following 
reference to the National Research Council about the NASA 
laboratories, you state that ``NASA is evaluating the 
replacement of several laboratories that will support the 
Agency's future research needs.'' So can you please talk a 
little bit about that effort and how you are weighing the 
importance of remaining competitive in the research field? How 
are you bringing in stakeholders on that task and how are you 
making research a priority?
    Mr. Keegan. I would say that NASA is very concerned about 
the issue of having state-of-the-art research facilities and 
being able to attract the best and the brightest to work at 
NASA. In the NRC report, they cited the Exploration Sciences 
Building at Goddard as an example of a renewal facility or 
repair by replacement facility that included state-of-the-art 
laboratory facilities, and we have several similar facilities 
in planning or in design right now where we would replace old, 
antiquated facilities with a new, energy efficient, smaller 
footprint building but at the same time, including state-of-
the-art laboratory facilities.
    Ms. Bonamici. And what is the basis of the definition? I 
understand it is future research needs. Where is that decision 
coming from, and who has input into that?
    Mr. Keegan. The broader research community has input to it 
through the various standing mechanisms, but the--basically it 
is a decision that is made at the strategic level at NASA 
Headquarters in terms of where to put our priorities in terms 
of the research we should emphasize.
    Ms. Bonamici. Well, I want to align myself with Mr. Bera's 
comments, too, about the need to have a clear mission, and 
again, that is critical to the work that you are doing but all 
of NASA as well.
    Can you talk a little bit about the--what is apparently a 
$2 billion deferred maintenance backlog. Is that getting worse, 
better, or staying about the same and what do you need to 
significantly reduce that deferred maintenance backlog?
    Mr. Keegan. The deferred maintenance backlog is a measure 
of all the maintenance that it would take to bring all of our 
facilities up to current standards. It has accumulated and 
grown over the years, historically because NASA has not been 
able to carve out sufficient funding to maintain facilities up 
to standard from limited resources. Since 2011, it has come 
down and the way we were able to make progress against that was 
through the use of demolition--if you demolish a facility with 
a lot of accumulated deferred maintenance that comes off the 
books--and by our repair by replacement approach, where we 
replace old, antiquated facilities with newer, more efficient, 
flexible facilities, and again, we get rid of that accumulated 
backlog of deferred maintenance. So we have had a little 
success in the last couple years through using those 
strategies.
    Ms. Bonamici. Thank you, and can you follow up a little bit 
on the similar capabilities, smaller footprint strategy, and 
talk about why NASA settled on this strategy versus other 
options, and how is it going? And I want to ask Mr. Martin, 
too, based on your work, to what extent is NASA positioned to 
make progress on carrying out the similar capabilities, smaller 
footprints, and what might be the barriers?
    Mr. Keegan. We chose that because we thought we didn't want 
to reduce the capability that NASA had, but we thought it had 
to exist in a smaller footprint because the resources weren't 
available to maintain sort of the capability suite that we 
have.
    Mr. Martin. I think the jury is still out about how 
successful. We are seeing some of the dynamics during this 
hearing here, some of the cultural and historic influences 
within NASA about shedding itself from a Center and program-
specific area. We are seeing some of the, as GAO calls it, 
stakeholder influences, the political influences that 
individual Members of Congress don't want to diminish the 
capabilities of NASA Centers within their jurisdictions. It is 
very complex and dynamic. I think it is too early to tell 
specifically though how this is going to play out.
    Ms. Bonamici. Thank you, and my time is expired. Thank you, 
Mr. Chairman.
    Chairman Palazzo. Mr.--the Chair now recognizes Mr. Posey 
for five minutes.
    Mr. Posey. Thank you very much, Mr. Chairman. I am sure we 
have all been witness to the fact it often seems that everyone 
in the rooms knows how to make a baby stop crying, except the 
person who is holding it. In the interest or balance, I would 
like to enter into the record and briefly quote a couple of the 
letters referred to a few minutes ago by the gentleman from 
Texas, Mr. Hall.
    Chairman Palazzo. Mr. Posey, I am going to reserve the 
right to object to the inclusion of this material into the 
record until my staff and I have the time and opportunity to 
review it.
    Mr. Posey. Mr. Chairman, with all due respect I will yield 
to that. I haven't ever heard of that rule before.
    Chairman Palazzo. Neither have I, until the last minute so 
why don't we do this? Since I have already done it twice, we 
will do it a third time. Without objection.
    [The information appears in Appendix II]
    Mr. Posey. Thank you. I would just like to read a couple of 
lines of it. We won't enter it into the record until you have 
had a chance to prove it.
    But it says ``We write to voice our continued support of 
NASA's ongoing effort to quickly and efficiently lease their 
costly, excessive space launch infrastructure and other assets 
for commercial use consistent with--'' and it gives all the 
Federal regulations. ``Two decades ago, the United States was a 
world leader in commercial launches. Today, that has virtually 
disappeared. However, there are American launch companies that 
are committed to changing that.'' And we basically talk in this 
letter, then, about the rest of the world, China, Russia, et 
al, are launching commercial satellites left and right while 
our best launch pads sit there and rot. We commend NASA for 
moving forward, essentially, and I think you will be pleased to 
include the letter when you have the opportunity to read it, or 
your staff does.
    You know, Kennedy Space Center and NASA is asking for 
proposals for both single and multi-user pad use. People here 
are trying to weigh in, actually, before that process is 
completed. Our position is we need to complete the process. We 
are not taking sides on the formal configuration of the launch 
pad, whether single or multi-use, although they are looking at 
both. We just want our space program to move forward. We want 
to alleviate the Monday morning quarterbacking and second 
guessing. We have Inspector Generals that do that for us. You 
know, we have used charts and we have seen charts in this 
Committee that are a matter of record that show over two dozen 
of our space programs--we call them missions to nowhere--over 
the last two decades, and billions and billions and billions of 
dollars wasted because we have the parochial interest of 
different members trying to micromanage what NASA does. It is 
like a city councilman trying to tell police chief who to 
arrest and who not to arrest. I think that is a big problem and 
that is the essence for this letter.
    A question I have for the Inspectors--and I have several. I 
hope we have time for a second round today. Earlier this 
summer, the Kennedy Space Center selected Space Florida to 
operate their former Shuttle landing facility. It is well-known 
that the Federal Government can prove difficult for private 
industry to partner with, obviously, because the government has 
many bureaucratic policies and procedures. Can you tell me what 
steps NASA is taking to ensure Space Florida's success in 
attracting commercial business to the KSC former Shuttle 
landing facility?
    Mr. Keegan. My knowledge of that process is that we are 
anticipating negotiations with Space Florida beginning soon and 
anticipate a lease award in December. I am unaware of any 
issues in that regard.
    Mr. Posey. Okay, thank you.
    NASA has determined that much of its former Shuttle 
infrastructure at Kennedy Space Center, including 39A, is no 
longer needed by the space agency. If NASA is unable to attract 
private companies to utilize these facilities, what will happen 
to them, just for the record?
    Mr. Keegan. They will be excessed and demolished or 
abandoned.
    Mr. Posey. At a loss of a significant investment.
    Mr. Keegan. That capability will no longer be there.
    Mr. Posey. Thank you. Do you believe that NASA has the 
legal authority it needs to expeditiously deal with their 
excess or underutilized property?
    Mr. Keegan. I think yes, we have the authority to 
effectively deal with that, yes.
    Mr. Posey. Okay, my time is up. Thank you, Mr. Chairman. I 
yield back.
    Chairman Palazzo. Mr. Posey, are you done? Okay. I just 
want to remind you also that your letter has been entered into 
the record without objection. I do just want to remind all the 
Members it is normal practice to allow staff to review your 
letters for the record or reports for the record, so if we 
could, we will try to do that in the future.
    Mr. Posey. One question, Mr. Chairman.
    Chairman Palazzo. Yes.
    Mr. Posey. There were two letters. There was a bipartisan 
letter signed by every Democrat and every Republican member of 
the delegation in the House, and there was one signed 
bipartisan, both our Democratic and our Republican Senator 
signed a similar letter. Are both of those bipartisan unanimous 
letters admitted for the record?
    Chairman Palazzo. They will be without objection.
    Mr. Posey. Thank you, and I apologize if you had not had 
the chance to see these letters before. I thought we had 
supplied you copies of them. Mr. Hall had copies of them and 
some of the other Members did, and I do apologize if you did 
not get them.
    Chairman Palazzo. Thank you. The Chair now recognizes Mr. 
Veasey. Okay, he is good. The gentleman yields back. The Chair 
now recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I wasn't expecting 
that.
    Just one note, I have been here 25 years and people ask me, 
what is the thing that you are the proudest of that you have 
accomplished in Congress? Now with Ralph, he has been here a 
lot longer and had a lot more accomplishments than I have, so 
it doesn't take me a long time to figure out what it is that I 
am the most proud of. And one of the things I am most proud is 
that I am the author of this Commercial Space Act of 2004. I 
think that bill, that piece of legislation has done more to 
change America for the better than anything that I have done in 
25 years. Now my Democratic colleagues wouldn't be surprised 
that that is the only thing that I am lauding right now, but 
the fact is is that we all worked together and this is the 
great thing about this Committee is that we do work together as 
Democrats and Republicans and try to get things done because we 
believe in space, but we also believe in science and technology 
as an energy source for our country to improve its condition 
and the condition of our people.
    If America is to remain the leading Nation or at least a 
leading Nation in space, we must ensure that the energy and the 
creativity of the American commercial space industry is brought 
into the play in a big way. To the degree that we have not laid 
the foundation so that the creative genius and investment by 
people in the private sector can take place, well, we will be 
limiting America's role and America's leadership in space. So 
that is one of the things that we are talking about, 
facilities. It is really important that we use our facilities 
in a way that is maximized, that are going to maximize bringing 
in private sector involvement and investment, especially if we 
are talking about assets that are now not being used and are 
not likely to be used by NASA. We have some--let me just note, 
I know that there is a controversy about this space pad 39A, 
and I will just say this. We need--right now, we need to make 
sure that whatever decision is made, it is going to make sure 
that that asset is put to use for--as soon as possible for as 
long as possible in producing a service or producing an 
activity that will benefit our people. We have got people in 
the private sector who want to use that. If it is determined 
that one decision will mean that that pad is not being used, 
well, we shouldn't make that decision. There is a decision that 
says well, it is going to be used right away and it is going to 
be put to use as soon as possible, well that is a decision that 
we should be doing. We shouldn't be--and that is just my 
advice. That was the spirit behind that bill, the Commercial 
Space Act. Let's get as many people involved and invested in 
space and space activities as we can and as soon as we can. So 
that is my bit of advice on how to solve that problem. I am not 
being specific because I don't have the wisdom to go through 
all of the, you know, paperwork to make that determination. But 
I would say it should be based on that concept and also it 
should be based not on the philosophy, but on what practically 
will have that impact.
    I think I am going to leave it at that. I would yield my 
friend, Mr. Stockman, 60 seconds.
    Mr. Stockman. Thank you. Mr. Chairman, as a follow up to my 
questions to Mr. Richard Keegan on the safety concerns of the 
internal NASA report, I cited I would ask that part of my 
questions for the record for the NASA Chief of Safety and 
Missions Assurance address the concerns and response to the 
Committee. I understand that safety is not necessarily Mr. 
Keegan's job, but is in NASA's witness before us today, so I 
ask that that follow up occur, Mr. Chairman. Thank you.
    Mr. Keegan. And I would say that our Administrator has told 
us safety is every one of our jobs, so----
    Mr. Stockman. So you can go on the record that you will 
show this to the head of the safety?
    Mr. Keegan. Yes.
    Mr. Stockman. Okay, thank you.
    Mr. Rohrabacher. And my time is up. Thank you, Mr. 
Chairman.
    Chairman Palazzo. Well thank you. At this time, we will--we 
do have a little time before votes are going to be called. They 
estimate it is going to be at 10:50. There are--I believe some 
members have said they would like to ask a few more questions, 
so if you don't mind, we will go into a second round.
    At this time, we will go into a second round of questions. 
Just real quick, Mr. Keegan. How does NASA decide if a facility 
is underutilized? In some of the follow up aspects of your 
answer, include the standard criteria that would be used. What 
is the process for making such a determination, and of course, 
what type of oversight provisions exist to ensure that this 
process is not manipulated or taken advantage of?
    Mr. Keegan. It is, first of all, an open agency discussion 
with all of the relevant stakeholders taking place. But 
utilization is measured based on a facility's capacity versus 
the actual activity that takes place in that facility during a 
period of time. So if a test stand is available but is only 
used, you know, 50 percent of the time that it is available for 
testing, you would just say that is underutilized. That doesn't 
necessarily mean that it is excess. If that facility has a 
unique capability that is critical to NASA, we need to keep it 
and we would strive to increase the level of utilization to 
spread to fix costs, but it doesn't mean we can somehow excess 
it. So I think in general, that is responsive to your question.
    Chairman Palazzo. Mr. Martin, do you have anything to add?
    Mr. Martin. Not too much to add, no, not to that. The 
criteria that the Agency uses to identify what is excess--I 
mean, there are test stands, as Mr. Keegan indicated, that may 
be used once a year, just given the current human exploration 
or rocket development program, and that is underutilized, but 
if you only need to use it once a year, you have to have that 
capacity when you need it.
    Chairman Palazzo. Good response. How about from an 
oversight controls standpoint?
    Mr. Martin. Well I mean, what we have is--and we discussed 
it in our testimony--is you have redundancies, I think 
unnecessary redundancies among many of the Centers, because 
historically they have competed for work. I mean, there used to 
be a philosophy just a handful of years ago about sustaining 
ten healthy Centers, that is, partitioning the work at that 
time in the Constellation Program among all the Centers to keep 
them busy. Well, Constellation is no more and clearly from an 
infrastructure perspective NASA does not have, unfortunately, 
ten healthy Centers. I am not sure from an infrastructure 
standpoint NASA has a single healthy Center.
    Chairman Palazzo. Well, I appreciate that comment but I 
think it comes back to the stark reality is that we need a 
roadmap to exploration so these Centers can actually judge 
their infrastructure, judge their facilities and so going 
forward, they can actually know are they going to be utilizing 
those assets in the future, because you know, it was mentioned 
that people like to hold on to their facilities and hold on to 
their assets, because they don't know what is going to be there 
tomorrow because of the massive amount of uncertainty. And I 
think this Committee will agree with that because it has been 
mentioned several times.
    So at this time, I will recognize Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    I wanted to--Mr. Keegan, wanted to follow up with Ms. 
Bonamici's line of questioning around the deferred maintenance 
backlog and clearly, that is a backlog that this significant is 
going to impede construction and maintenance and operations 
budgets. So I wanted to follow up with the question that if 
budgets remain at the current level, how much progress do you 
think in the next five to ten years could NASA expect to make 
on its goal that was stated in the Agency Master Plan of having 
62 percent of NASA's assets be under 40 years old by 2055?
    Mr. Keegan. Clearly our ability to make progress against 
that strategic goal is limited by the resources that are 
available to accomplish it, so we would still be shooting at 
the same goal but it would take us that much longer to get 
there.
    Ms. Brownley. So I mean, if you had to kind of reconcile 
things based on the current level of budgeting, you couldn't 
predict what it might look like five to ten years out?
    Mr. Keegan. Not certainly in the moment, and it would be 
very difficult anyway because we would have to, I think, go 
back and revisit the assumptions then about the amount of 
infrastructure we would have and can we do anything to affect 
that, and so forth.
    Ms. Brownley. Okay. And then following up on that, if 
current trends continue, I fear that NASA will reach a point of 
mediocrity and due to the condition, age, and capabilities of 
the facilities. In your opinion, how far away from that point 
do you think we are?
    Mr. Keegan. In my opinion, I believe and I hope that we are 
a long way away and we have a dedicated group of employees and 
leaders trying to figure out innovative ways to address sort of 
these difficult issues and complex issues that would allow us 
to make better progress even in a resource-constrained 
environment.
    Ms. Brownley. Well, thank you. I mean, I think I certainly 
believe and I know the Ranking Member also believes the 
importance of investing in NASA and enabling the Agency to 
carry out a 21st century space program. And on the other hand, 
I think that given where the budget is and so forth, it may be 
worthwhile for us to be looking or at least to know what a plan 
B might look like with budgets as they are and what it might 
look like so that we can, I think, better evaluate a future 
direction.
    Mr. Keegan. Thank you.
    Chairman Palazzo. The Chair now recognizes Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    In your written testimony, you said that the Agency will 
continue to conduct and operate only those assets required to 
conduct its program, maintain core capabilities, and meet 
national responsibilities. And yet, NASA's own IG report 
earlier this year noted that the Agency has historically 
maintained unused facilities for a decade or more, and that it 
is an institutional problem. How do you see this culture being 
changed and NASA said their 10 research Centers will manage 
their infrastructure in a coordinated fashion?
    Mr. Keegan. As the Inspector General also pointed out, it 
is a complex problem to address, and sometimes there are 
differences of opinion about whether a capability may be needed 
at some time in the future or not. As an example, some of the 
facilities mentioned in the Inspector General's report, some 
have been demolished, some have been abandoned or mothballed, 
but others are currently active again because requirements have 
emerged to use the capabilities in those facilities. And so 
there is some difficulty, and a lot of this is based on 
judgment and prediction of what might be required. I would say 
that with the--we created the Mission Support Council at the 
Agency level in order to provide some kind of Agency-wide 
strategy and optimization of these types of decisions. It is 
not just managed at the local level. And we have active 
teamwork with all the Center directors and relevant Agency 
managers to make sure we make decisions in the best interest of 
the Agency. But it is a problem that we have to wrestle with 
and make better progress against.
    Mr. Posey. Thank you. Buried deep in the appendices of the 
IG's report was a reference to a recent change we made which 
allowed DoD to work with contractors on property that they 
don't have a use for and which would be to the mutual benefit 
of the taxpayer. I was delighted to see that there and I would 
just like to encourage you to share with our staff the benefits 
of allowing NASA to do that. I think it would be much more 
effective and I think our taxpayers would be much better 
served, and it would probably make a whole lot of people a lot 
more comfortable, reduce a lot of bureaucracy, and every 
American would benefit.
    What is--same question for each of you--the single best 
action that you believe that Congress could take to improve our 
space program?
    Mr. Keegan. I think I would defer that to my Administrator.
    Mr. Martin. I think my answer would be to come together on 
the broad overall mission for NASA, not just human exploration, 
but science, aeronautics, if it is even possible to come 
together, and then to fully fund that mission. Because for far 
too long, NASA has been asked to do too many things with not 
enough funds, and then we have hearings--important hearings 
like this, but discussions like this. So identify the missions, 
plural, fully fund those missions over the long term, and I 
think that is the best thing that could happen.
    Mr. Posey. Well, I think that is the heartfelt wish of 
everybody on this Committee on both sides of the aisle. The 
only time it ever gets a little bit difficult, I think, is when 
we try and all agree on what exactly those missions are and we 
try and convince the other 430 Members that aren't in here of 
the necessity of fully funding it. The residual benefits that 
every American receives from our space program--but I 
appreciate your comments and if you get more developed through 
the flow chart, and I would appreciate you sharing those with 
us as well.
    Thank you very much. I yield back, Mr. Chairman.
    Chairman Palazzo. The gentleman yields back.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
Committee may have additional questions for you, and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and written 
questions from Members. The witnesses are excused, and this 
hearing is adjourned.
    [Whereupon, at 10:55 a.m., the Subcommittee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by The Honorable Paul K. Martin

[GRAPHIC] [TIFF OMITTED] T5276.071

[GRAPHIC] [TIFF OMITTED] T5276.072

[GRAPHIC] [TIFF OMITTED] T5276.073

[GRAPHIC] [TIFF OMITTED] T5276.074

[GRAPHIC] [TIFF OMITTED] T5276.075

[GRAPHIC] [TIFF OMITTED] T5276.076

[GRAPHIC] [TIFF OMITTED] T5276.077

[GRAPHIC] [TIFF OMITTED] T5276.078

[GRAPHIC] [TIFF OMITTED] T5276.079

[GRAPHIC] [TIFF OMITTED] T5276.080

[GRAPHIC] [TIFF OMITTED] T5276.081

[GRAPHIC] [TIFF OMITTED] T5276.082

[GRAPHIC] [TIFF OMITTED] T5276.083

[GRAPHIC] [TIFF OMITTED] T5276.084

[GRAPHIC] [TIFF OMITTED] T5276.085

[GRAPHIC] [TIFF OMITTED] T5276.086

Responses by Mr. Richard Keegan
[GRAPHIC] [TIFF OMITTED] T5276.042

[GRAPHIC] [TIFF OMITTED] T5276.043

[GRAPHIC] [TIFF OMITTED] T5276.044

[GRAPHIC] [TIFF OMITTED] T5276.045

[GRAPHIC] [TIFF OMITTED] T5276.046

[GRAPHIC] [TIFF OMITTED] T5276.047

[GRAPHIC] [TIFF OMITTED] T5276.048

[GRAPHIC] [TIFF OMITTED] T5276.049

[GRAPHIC] [TIFF OMITTED] T5276.050

[GRAPHIC] [TIFF OMITTED] T5276.051

[GRAPHIC] [TIFF OMITTED] T5276.052

[GRAPHIC] [TIFF OMITTED] T5276.053

[GRAPHIC] [TIFF OMITTED] T5276.054

[GRAPHIC] [TIFF OMITTED] T5276.055

[GRAPHIC] [TIFF OMITTED] T5276.056

[GRAPHIC] [TIFF OMITTED] T5276.057

[GRAPHIC] [TIFF OMITTED] T5276.058

[GRAPHIC] [TIFF OMITTED] T5276.059

[GRAPHIC] [TIFF OMITTED] T5276.060

[GRAPHIC] [TIFF OMITTED] T5276.061

[GRAPHIC] [TIFF OMITTED] T5276.062

[GRAPHIC] [TIFF OMITTED] T5276.063

[GRAPHIC] [TIFF OMITTED] T5276.064

[GRAPHIC] [TIFF OMITTED] T5276.065

[GRAPHIC] [TIFF OMITTED] T5276.066

[GRAPHIC] [TIFF OMITTED] T5276.067

[GRAPHIC] [TIFF OMITTED] T5276.068

[GRAPHIC] [TIFF OMITTED] T5276.069

[GRAPHIC] [TIFF OMITTED] T5276.070

                              Appendix II

                              ----------                              


                   Additional Material for the Record


 Submitted statement of Donna F. Edwards, Ranking Member, Subcommittee 
         on Space, Committee on Science, Space, and Technology

    Thank you, Mr. Chairman, for holding today's hearing to review 
NASA's infrastructure and facilities, and I would like to welcome our 
witnesses.
    Before I start, allow me to congratulate NASA, the Ames Research 
Center, the Wallops Launch Facility, agency employees, contractors, the 
Mid-Atlantic Regional Spaceport, and Orbital Sciences in particular, 
for two outstanding space launches in the past two weeks. I am hopeful 
that LADEE will give us further insight into the Moon's environment and 
that Orbital's docking of its Cygnus spacecraft to the International 
Space Station signals the start of routine cargo resupply to that 
orbital laboratory.
    NASA, like other government agencies, built a range of facilities 
during its early years to meet national objectives. In NASA's case, 
those objectives included sending probes to investigate the Earth-space 
environment and study near and distant planets, advancing aeronautics, 
and sending humans to the surface of the Moon and returning them home 
safely. The Space Shuttle, during its thirty years of operations, 
required its own considerable infrastructure.
    These facilities, and many others at NASA, have enabled the United 
States to achieve the remarkable discoveries and advances over the last 
50 years that have inspired generations of Americans.
    The problem, as we know, is that the assets that enabled the past, 
are now, to an extent, a burden on the future. Nearly 80 percent of 
NASA's facilities are more than 40 years old. In addition, NASA is 
carrying a deferred maintenance backlog assessed at more than $2 
billion.
    It is hard to expect NASA to perform as a 21st century space agency 
with 20th century facilities. In fact, a 2010 National Academies 
report, Capabilities for the Future: An Assessment of NASA Laboratories 
for Basic Research, found that:

      ``Over the past five years or more there has been a steady and 
significant decrease in NASA's laboratory capabilities, including 
equipment, maintenance, and facility upgrades..The fundamental research 
community at NASA has been severely impacted by the budget reductions 
that are responsible for this decrease in laboratory capabilities, and 
as a result NASA's ability to support even NASA's future goals is in 
serious jeopardy.''

    And yet, research laboratories are just one facet of the problem. 
There are test stands, wind tunnels, arc jets, thermal vacuum chambers, 
launch complexes, and Shuttle processing facilities that are 
underutilized or that may no longer have a defined NASA need.
    NASA Authorization Acts of 2005, 2008, and 2010 have provided 
direction to NASA to address its infrastructure challenges, and 
multiple reports of the NASA Inspector General, among other advisory 
bodies, have highlighted NASA's infrastructure challenges.
    To its credit, NASA has, and is, taking positive steps to 
facilitate prudent, strategic decisions on maintenance, consolidation, 
demolition, and renewal of facilities, including the development of an 
Agency Facilities Strategy and an integrated agency-wide Real Property 
Master Plan.
    But let's face it, NASA's facility and infrastructure challenges 
are a bit of a Catch-22. NASA needs clear direction on its future, 
especially in human spaceflight and exploration, to help the agency 
leverage and optimize its infrastructure decisions and investments.
    And the underutilization of assets, along with the poor state of 
NASA's research labs, is in part a result of not giving NASA the 
resources it needs to implement the missions the nation is asking it to 
carry out.
    So, we have a choice: ignore the problem and let NASA's facilities 
run themselves into the ground to the point at which NASA is limping 
into mediocrity.
    Or invest in NASA and enable its future as a 21st century space 
agency that will continue its remarkable successes while fostering our 
national innovation agenda, the passions and dreams of our people, and 
new discoveries and advances in science, aeronautics, human spaceflight 
and exploration.
    I submit that this is not the time to back away from NASA. Rather, 
this is the time to provide NASA with the tools it needs to become a 
productive 21st century space agency.
    That's why I included in my alternative NASA Authorization Act of 
2013 bill, H.R. 2616, provisions to both focus NASA on an exploration 
goal and to help address NASA's aging facilities.
    I know there are a lot of issues to discuss and I look forward to 
hearing from our witnesses on today's topic, for which I believe the 
hearing title couldn't be more apt--``NASA INFRASTRUCTURE: ENABLING 
DISCOVERY AND ENSURING CAPABILITY.''
    Thank you, and I yield back.
Submitted statement of Eddie Bernice Johnson, Ranking Member, Committee 
                   on Science, Space, and Technology

    Good morning. I would like to join my colleagues in welcoming our 
witnesses to today's hearing.
    When we think of NASA, we think of astronauts at work on the 
International Space Station, the Apollo program and today's Orion and 
Space Launch System exploration vehicles. We think of cutting edge 
aeronautics research; robotic spacecraft landing on Mars, heading to 
the far reaches of the solar system and beyond, and imaging distant 
galaxies; as well as of spacecraft circling the Earth to provide us 
with unforgettably imagery and critical data needed to better 
understand our home planet and its climate. When we think of NASA, we 
don't often think of wind tunnels, environmental test chambers, 
research labs, and office buildings. However, NASA's impressive 
accomplishments would not be possible without NASA's infrastructure and 
NASA's dedicated workforce.
    That is why today's hearing is so important. We must ensure that 
NASA has the facilities and equipment that it needs to remain 
preeminent in space exploration, science, and aeronautics in the coming 
decades, and this hearing will help provide Members with the 
information we will need as we make decisions on NASA's funding and 
priorities. In that regard, I hope that today's hearing will be 
followed in the future by a hearing to look at what can be done to 
ensure that NASA's employees will remain productive and at the 
forefront of their fields too, especially at a time when the federal 
workforce is facing severe challenges on a number of fronts.
    Mr. Chairman, as we debate the fiscal challenges we face as a 
nation, it is important that we not let our examination of NASA's 
infrastructure turn into simply an accounting exercise, one focused on 
cost savings and budgets cuts. By that I don't mean to minimize the 
importance of seeking efficiencies and appropriate cost savings in 
NASA's infrastructure investments whenever possible. Rather, what I am 
saying is that we need to focus first on what we are trying to 
accomplish with the nation's investments in NASA-what are the outcomes 
we are seeking. Only then, can we intelligently assess what NASA will 
need in the way of infrastructure now and in the future. I believe that 
the NASA Authorization bill that Rep. Edwards and I introduced earlier 
this year provides clear direction and compelling goals for the agency, 
and I want to continue to work with colleagues on both sides of the 
aisle to come to a bipartisan consensus on NASA this year. However, I 
think it should be clear to all of us that NASA will be unable to 
achieve those goals if we fail to invest in safe, efficient, and 
productive infrastructure for the agency.

               Presentation submitted by Stephen Stockman

[GRAPHIC] [TIFF OMITTED] T5276.099

[GRAPHIC] [TIFF OMITTED] T5276.100

[GRAPHIC] [TIFF OMITTED] T5276.101

[GRAPHIC] [TIFF OMITTED] T5276.102

[GRAPHIC] [TIFF OMITTED] T5276.103

[GRAPHIC] [TIFF OMITTED] T5276.104

[GRAPHIC] [TIFF OMITTED] T5276.105

[GRAPHIC] [TIFF OMITTED] T5276.106

[GRAPHIC] [TIFF OMITTED] T5276.107

[GRAPHIC] [TIFF OMITTED] T5276.108

[GRAPHIC] [TIFF OMITTED] T5276.109

[GRAPHIC] [TIFF OMITTED] T5276.110

[GRAPHIC] [TIFF OMITTED] T5276.111

[GRAPHIC] [TIFF OMITTED] T5276.112

[GRAPHIC] [TIFF OMITTED] T5276.113

[GRAPHIC] [TIFF OMITTED] T5276.114

[GRAPHIC] [TIFF OMITTED] T5276.115

[GRAPHIC] [TIFF OMITTED] T5276.116

[GRAPHIC] [TIFF OMITTED] T5276.117

[GRAPHIC] [TIFF OMITTED] T5276.118

[GRAPHIC] [TIFF OMITTED] T5276.119

[GRAPHIC] [TIFF OMITTED] T5276.120

[GRAPHIC] [TIFF OMITTED] T5276.121

[GRAPHIC] [TIFF OMITTED] T5276.122

[GRAPHIC] [TIFF OMITTED] T5276.123

[GRAPHIC] [TIFF OMITTED] T5276.124

[GRAPHIC] [TIFF OMITTED] T5276.125

[GRAPHIC] [TIFF OMITTED] T5276.126

[GRAPHIC] [TIFF OMITTED] T5276.127

[GRAPHIC] [TIFF OMITTED] T5276.128

[GRAPHIC] [TIFF OMITTED] T5276.129

[GRAPHIC] [TIFF OMITTED] T5276.130

[GRAPHIC] [TIFF OMITTED] T5276.131

[GRAPHIC] [TIFF OMITTED] T5276.132

[GRAPHIC] [TIFF OMITTED] T5276.133

[GRAPHIC] [TIFF OMITTED] T5276.134

[GRAPHIC] [TIFF OMITTED] T5276.135

[GRAPHIC] [TIFF OMITTED] T5276.136

[GRAPHIC] [TIFF OMITTED] T5276.137

[GRAPHIC] [TIFF OMITTED] T5276.138

[GRAPHIC] [TIFF OMITTED] T5276.139

          Letter submitted by Representative Stephen Stockman

[GRAPHIC] [TIFF OMITTED] T5276.092

[GRAPHIC] [TIFF OMITTED] T5276.093

[GRAPHIC] [TIFF OMITTED] T5276.094

          Letter submitted by Representative Stephen Stockman

[GRAPHIC] [TIFF OMITTED] T5276.095

[GRAPHIC] [TIFF OMITTED] T5276.096

[GRAPHIC] [TIFF OMITTED] T5276.097

[GRAPHIC] [TIFF OMITTED] T5276.098

         Document submitted by Representative Stephen Stockman

[GRAPHIC] [TIFF OMITTED] T5276.140

[GRAPHIC] [TIFF OMITTED] T5276.141

[GRAPHIC] [TIFF OMITTED] T5276.142

[GRAPHIC] [TIFF OMITTED] T5276.143

[GRAPHIC] [TIFF OMITTED] T5276.144

             Letter submitted by Representative Bill Posey

[GRAPHIC] [TIFF OMITTED] T5276.087

[GRAPHIC] [TIFF OMITTED] T5276.088

[GRAPHIC] [TIFF OMITTED] T5276.089

             Letter submitted by Representative Bill Posey

[GRAPHIC] [TIFF OMITTED] T5276.090

[GRAPHIC] [TIFF OMITTED] T5276.091

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
